Audit of Project Reporting
     for NSF Awards




 National Science Foundation
  Office of Inspector General



      December 13, 2004
        OIG 05-2-006
Table of Contents
          Executive Summary…………………………………………………….1

          Introduction…..……………..……………………………..………….…3

          Objective, Scope, and Methodology……..………….………….….…5

          Results of Audit……………..………..……………………..…………..7
                Many Project Reports Not Submitted in a Timely Manner.....8
                NSF Has Funded Investigators with Overdue Final
                       Project Reports …………………………………….….18
          Agency Response to Findings and Recommendations……..…….21
          Other Matters for Consideration……..……………………….……...22


          Appendix A:   Agency Response …….………………………………23
          Appendix B:   Division Statistics – Final Project Reports…....…….25
          Appendix C:   Division Statistics – Annual Project Reports…..…...28
          Appendix D:   Directorate Statistics – Final and Annual
                        Project Reports……..……………………………….…30
Executive Summary
Background:         In accordance with federal policies, the National Science
                    Foundation requires most principal investigators to
                    submit final and annual reports on the progress of their
                    research projects. The information in these reports is a
                    critical element in post-award administration. In addition
                    to providing information that program officers can use to
                    monitor award progress and identify potential problems,
                    reporting requirements hold awardees accountable for
                    their use of federal funds. The reports also provide NSF
                    with information useful for reporting to the Congress and
                    other stakeholders on the outcomes of the agency’s
                    activities.


Purpose:            Because a lack of timely information may adversely affect
                    the agency’s ability to achieve its goals and the ability of
                    stakeholders to make fully informed strategic decisions,
                    our first audit objective was to determine whether
                    principal investigators were submitting the required final
                    and annual reports, and if so, were they timely.

                    Our second objective was to determine whether NSF was
                    complying with its policy not to fund a new award to a
                    principal investigator who has not submitted the final
                    project report for a previous NSF award.


Results in Brief:   Approximately 47 percent of the 151,000 final and annual
                    project reports required in the past 5 years were
                    submitted late or not at all. Of the 43,000 final project
                    reports, 8 percent were never submitted, and 53 percent
                    were submitted, on average, 5 months late. Of the
                    108,000 annual reports, 42 percent were never
                    submitted. NSF does not track due dates for annual
                    reports so we were unable to determine if the annual
                    reports that NSF did receive were on time. A variety of
                    factors contribute to the untimely reporting including that
                    monitoring overdue project reports is a lower priority than
                    other tasks such as reviewing proposals and issuing
                    awards.

                    Additionally, in 74 of 571 occurrences over the past 5
                    years, principal investigators received funding for new
                    awards even though they had not submitted final project


                                     1
                   reports for prior awards. NSF’s automated award system
                   is designed to prevent new funding when a principal
                   investigator owes a final report from a prior award, but
                   does not appear to be working as intended. Only 1 of the
                   74 occurrences had documentation that indicated NSF
                   made a management decision and overrode the system’s
                   controls to allow the new funding. However, for the
                   remaining 73 occurrences, we were unable to determine
                   whether the automated system had failed, or whether
                   someone had manually overridden the system’s controls.


Recommendations:   To assist its principal investigators in submitting final and
                   annual project reports on time, NSF should continue its
                   plans to develop the report tracking and automated
                   reminder systems. Additionally, NSF should clarify the
                   roles and responsibilities for NSF staff and institutions in
                   ensuring that principal investigators submit timely project
                   reports. It should also emphasize the importance of
                   these reports, and better utilize its administrative staff to
                   help ensure timely reports.

                   Furthermore, to ensure that NSF treats its principal
                   investigators equally when enforcing agency policy, NSF
                   should require written authorization and documentation
                   whenever it manually overrides controls in the award
                   system. NSF should also monitor the award system to
                   ensure that its controls are functioning as intended.


Agency Response:   NSF generally agreed with our findings and
                   recommendations, except that it believes its
                   administrative guidance relative to assistance awards is
                   appropriate. However, the audit findings do not identify
                   guidance that is lacking. Rather, they identify areas
                   where the guidance can be improved, and circumstances
                   where NSF did not always implement its own policies and
                   procedures.




                                    2
Introduction
          Each year the National Science Foundation (NSF) manages a
          portfolio of approximately 30,000 awards to promote the progress
          of science and to support research and education in all fields of
          science and engineering. The awards are made to institutions
          whose principal investigators conduct the research. Most awards
          are made using the standard or continuing grant funding
          mechanism; cooperative agreements are also used.1 Regardless
          of the funding mechanism, by accepting federal funds to conduct
          research, the institutions and the principal investigators agree to a
          variety of federal and agency-specific terms and conditions.
          Among these are requirements to report periodically on the
          progress and accomplishments of the funded projects.

          Federal and Agency Project Reporting Requirements
          Requirements for reporting on the progress and results of federally
          funded research are set forth at both the federal and the agency
          levels. The Federal Government, in the Office of Management and
          Budget (OMB) Circular A-110,2 outlines general requirements for
          monitoring and reporting on program performance. OMB A-110
          states that recipients of federal funds are responsible for managing
          and monitoring each project or activity supported by the federal
          award, and requires these recipients to submit performance reports
          both annually and at the end of a project. Such reporting
          mechanisms provide accountability for taxpayer dollars used to
          fund the work.

          At the agency level, NSF outlines its reporting policies and
          requirements in a variety of agency documents3 and also
          references these requirements in the letters it sends to institutions
          regarding these awards. NSF policy requires these reports to
          provide NSF program officers with information on the progress of
          projects under their responsibility. Information from these reports is
          also used by the agency for reporting its performance to the
          Congress, as mandated by the Government Performance and
          Results Act of 1993.

          1
            For standard grants, NSF provides a specific level of support for a specified
          period of time, fully funding the grant in a single action. For continuing grants
          and cooperative agreements, NSF provides a specific level of support for a set
          period of time, but provides the funding on an incremental basis.
          2
            Uniform Administrative Requirements for Grants and Agreements With
          Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations.
          3
            These documents include NSF’s Proposal and Award Manual, Grant Proposal
          Guide, Grant Policy Manual, and Grant General Conditions.


                                          3
For most awards, NSF specifically requires the principal
investigator to submit a final project report at the end of the award.4
The report is due to NSF within 90 days after the award expiration
date, and should include information on the project’s activities and
results, and identify publications associated with the award. NSF’s
policy also requires that, if a project lasts 24 months or more, the
investigator must submit an annual project report 90 days prior to
the end of the project’s current budget period.5 These reports are
to include information such as progress of the research and
personnel demographics, and identify publications resulting from
the research.

Report Responsibilities and Processes
NSF awards funds for research to an institution rather than directly
to a principal investigator. As such, NSF holds the institution
accountable for financial and overall management of the award.
Yet for project reporting, NSF only holds the individual investigator
responsible for submitting annual and final project reports, and will
not award the investigator new funding until final project reports
from any previous awards are received and accepted by a NSF
program officer.

NSF holds its program officers generally responsible for routinely
reviewing computer-generated reports containing information on
overdue final project reports, and for following up with the
responsible principal investigators to obtain those reports. NSF
also directs its program officers to consult with the Division of
Grants and Agreements in those situations where follow-up efforts
to obtain a final report are unsuccessful. NSF policies do not detail
similar reminder or follow-up responsibilities for the institution
receiving the award.

Principal investigators submit their annual and final project reports
to NSF via FastLane, NSF’s web-based system for transactions
related to proposals and awards. FastLane contains standard
templates for both annual and final reports that the principal
investigators must follow. Once FastLane receives a project report,
it automatically places the report in an electronic review folder for
the appropriate NSF program officer. The program officer reviews
the report and, if satisfied, approves the report in the system.
Program officers can also reject reports or ask the principal

4
  NSF does not normally require final project reports for institutional graduate
research fellowships and interagency agreements.
5
  NSF is updating its Proposal and Award Manual to define the annual reporting
period as 12 months from the effective date of the award.


                                4
    investigator to resubmit a report with more information. After
    approving or rejecting a report, FastLane provides the program
    officer with the option to send an email back to the principal
    investigator.

    NSF has a limited number of automatic reminders to principal
    investigators regarding the due dates of project reports. Although
    the Proposal and Award Manual states that NSF will generate a
    reminder to the principal investigators approximately 30 days
    before the award expires, FastLane only notifies principal
    investigators and their sponsored research officers via email about
    overdue final project reports if the principal investigator submits a
    new proposal. NSF does have a reminder system for annual
    reports due for continuing grants, but, as a rule, NSF does not send
    principal investigators automatic notification regarding upcoming or
    overdue annual or final project reports.




Objectives, Scope, and Methodology
    Because both annual and final project reports are important
    elements in award administration, program management, and
    NSF’s reporting on the results of the research it funds, the
    objectives of our audit were to:

        •   Determine whether annual project reports and final project
            reports were submitted in a timely manner, and
        •   Determine whether NSF ensures that it does not fund new
            awards to principal investigators and co-principal
            investigators with outstanding final project reports.

    To determine whether annual and final project reports were
    received in a timely manner, we requested and obtained data from
    NSF on final and annual project reports as of July 26, 2004, for all
    standard grants, continuing grants, and cooperative agreements
    that had reports due for the 5-year period between May 1, 1999,
    and May 31, 2004.6 We analyzed the final report data to identify
    missing, late and on-time reports agency-wide and by directorate,
    division, institution type, and award mechanism. We also obtained
    data on whether annual reports were filed and accepted. However,


    6
      Cooperative agreements constituted less than one percent of the awards
    requiring final project reports. Therefore, we did not address cooperative
    agreements in our report.


                                   5
we were not able to assess their timeliness because NSF’s awards
system does not track annual project report due dates.

We interviewed a sample of NSF program officers and division
directors to discuss their responsibilities and practices for reviewing
project reports and reminding principal investigators that these
reports were due or overdue. The sample included 33 program
officers from 11 of NSF’s 36 program divisions and offices. 7 The
program officers represented 8 percent of NSF’s 380 total program
officers, and their divisions were those with the highest or lowest
rates for missing and late final project reports and missing annual
project reports. (See Appendices B and C for division data.)

We also interviewed 19 principal investigators and staff from 13
sponsored research offices at institutions to understand their
perspectives on the purpose of project reports, how they are used
by NSF, and NSF’s reminder systems for upcoming and overdue
reports.

Finally, for the same period of time, we reviewed agency-provided
data for all awards to determine whether NSF was implementing its
policy that principal investigators with outstanding final project
reports could not receive new funding for subsequent awards.

We conducted our work between May 2004 and November 2004 in
accordance with generally accepted government auditing
standards.




7
 We included the program divisions within each directorate and the Office of
Polar Programs, Office of Integrative Activities, and the Office of International
Science and Engineering. We did not include the smaller number of awards
made by the Assistant Director Offices at the directorate level.


                                 6
Results of Audit
         Reporting on the progress and results of science, education, and
         engineering research funded by NSF demonstrates researchers’
         accountability by helping to ensure that federal funds are spent as
         intended. Without timely reports, NSF cannot ensure adequate
         progress of the projects or address potential problems quickly.
         Thus, ensuring the timely submission of annual and final project
         reports is a critical element in NSF’s post-award administration
         activities.

         Nevertheless, we found that 71,500 reports, almost half of the
         approximately 151,000 annual and final project reports required
         over a five-year period, were submitted late or not at all. A variety
         of factors contribute to these late or missing reports including NSF’s
         failure to implement all of its post-award administration policies, and
         a lack of post-award administration policies addressing specific
         roles and responsibilities. NSF also lacks a clear policy that
         communicates the importance of project reports to NSF’s program
         officers, the institutions receiving awards, and the principal
         investigators conducting the research.

         Additionally, although NSF requires principal investigators to have
         submitted their final project reports before receiving funding for new
         awards, we identified 74 cases where a principal investigator with
         an overdue report received new funding. NSF’s automated system
         provides the control that prevents the new funding, yet we were
         unable to determine whether the cases occurred due to system
         errors or manual overrides of the system. Only one file contained
         the necessary documentation to support that an appropriate
         management override of the system had occurred. Without
         management controls to ensure proper documentation of the
         occurrence and reasons for exceptions, NSF cannot ensure that it
         treats all principal investigators equitably and holds them
         accountable for the proper use of the federal funds they received.




                                    7
Many Project Reports Not Submitted in a Timely Manner
        NSF award agreements require principal investigators and co-
        principal investigators to submit annual and final project reports as
        a condition of receiving an award. With few exceptions, NSF
        requires the principal investigator to submit a final project report to
        NSF within 90 days after the award’s expiration date. For an award
        spanning two years or more, NSF also requires that the principal
        investigator submit annual project reports within 90 days before the
        end of each of the award’s budget periods. However, of
        approximately 43,000 final project reports required between May
        1999 and May 2004, about 22,800 final reports (53 percent) were
        submitted late. These reports were overdue by an average of 5
        months, but approximately 200 final reports were received 3 to 5
        years late. Further, as of July 2004, another 3,700 final reports (8
        percent) had not been submitted at all and had been missing for an
        average of more than 26 months.

        During the same 5-year period, NSF required approximately
        108,000 annual project reports from principal investigators with
        multi-year awards. While NSF received 58 percent of these annual
        reports, over 45,000 (42 percent) had not been submitted.
        Because NSF’s systems do not track due dates for all annual
        project reports, we could not determine whether a principal
        investigator had submitted the report on time.

        Variations in Submission Rates by Directorate and Other
        Characteristics
        The rate at which principal investigators submitted timely annual
        and final project reports varied somewhat by directorate and by
        type of institution, but trends in report timeliness were more readily
        apparent at the division level and by award mechanism.

        Overall, NSF’s eight directorates’ rates for receiving final project
        reports were generally consistent, with the directorates receiving
        between 46 and 57 percent of final project reports late, and missing
        5 to 14 percent of the reports. For the required annual project
        reports, between 31 and 49 percent were missing at the directorate
        level, except for one directorate that was missing 68 percent of its
        required annual project reports. (See Appendix D for directorate
        data.)

        Similarly, the range for late and missing final project reports did not
        vary greatly among the different types of educational institutions
        receiving NSF awards, such as universities, community colleges,


                                    8
and school districts.8 For each type of institution, between 44 and
65 percent of final project reports were late or were missing. For
annual project reports, between 34 percent and 51 percent were
missing among the different types of institutions.

While directorate rates were generally consistent, greater variation
existed at the division level. For example, the combined rate for
late and missing final reports ranged from as low as 34 percent for
1 division to 70 percent or more for 3 other divisions, with most
experiencing rates of 60 to 69 percent. Similarly, the divisions were
missing annual project reports at rates varying between 16 and 84
percent. (See Appendices B and C for data on each division.)

Principal investigators submitted final project reports at similar rates
regardless of award mechanism, but they submitted annual project
reports for continuing grants much more frequently than for
standard grants. This fact is not surprising given that future funding
for the principal investigator is dependent upon reports being
submitted. Principal investigators did not submit 70 percent of
annual project reports required for standard grants, but they failed
to submit only 16 percent of annual project reports for continuing
grants. No annual project reports were missing for continuing
grants in fiscal year 2004.

Impact of Untimely Reporting
These statistics indicate that NSF faces a significant challenge in
receiving project reports in a timely manner, affecting the quality of
NSF’s post-award administration at the project, program, and
agency levels. Without timely annual project reports, an NSF
program officer may not be able to address potential problems that
could impair the satisfactory performance of a funded project. Also,
missing and untimely final project reports lessen NSF’s ability to
evidence its stewardship of federal funds and demonstrate the
value of its research investments. By not establishing the
management tracking systems needed to identify and follow up on
late and missing reports, NSF may give the appearance that it does
not place a priority on these reports, thus undermining its post-
award monitoring activities.




8
  The data was sorted into seven categories of institutions: 2-year but less than
4-year colleges; 4-year colleges; Kindergarten – Grade 12; Master’s or 1st
professional degree; PhD or equivalent; trade schools/2-year schools; and
“other,” which includes associations and small businesses. We omitted the
category Trade schools/2-year schools from our analysis because it contained
only four awards.


                                9
In addition, because of missing or late project reports, NSF
management, the National Science Board, NSF’s advisory
committees, and the scientific community may not be fully informed
about the results of the research funded by NSF. Tracking the
results of NSF’s research is essential to setting future research
policy and strategic direction, and ensuring that the research
funded contributes to that direction. Finally, NSF cannot ensure it
is receiving performance and outcome data for its full portfolio of
funded research, thereby limiting its ability to report its performance
under the Government Performance and Results Act (GPRA), and
to fully inform stakeholders, including the Congress and taxpayers,
of the benefits and knowledge gained as a result of its investments.

Various Causes for Untimely Reporting
We identified several possible factors that contribute to the high
number of late and missing reports. In general, NSF’s post-award
administration policies are weakened because NSF has not always
implemented its current policies. In other circumstances, NSF
lacks the policies and infrastructure to support and ensure timely
submission of project reports. NSF management also may not be
communicating clearly to principal investigators and institutions the
importance of these project reports and instead, may be sending
conflicting messages about how these reports are used for agency
performance reporting. The financial incentive associated with
submitting annual project reports may also play a role in
determining whether these reports are submitted. Finally, NSF may
not be fully utilizing its administrative staff in supporting award
administration activities.

Policies related to project reports not implemented or lacking: NSF
policy states that the agency will generate final report reminders to
the principal investigator and the institution’s sponsored research
office approximately 30 days prior to the expiration of the award. If
NSF was following that policy, its system should have generated
reminders for over 8,900 final project reports in 2003. However,
NSF officials stated that this policy has not been implemented since
NSF began the electronic processing and management of awards
and proposals.

Currently, NSF sends a reminder for an overdue final project report
to the principal investigator and the institution’s sponsored research
office only if the principal investigator submits a new proposal to
NSF for funding. The program officer also receives a copy of this
message. Although individual program officers may send
reminders to their principal investigators, NSF has no agency-wide




                           10
system to proactively notify principal investigators or program
officers that final reports are coming due or are overdue.

Furthermore, although NSF policy details program officers’ specific
roles and responsibilities for final reports, it has no such guidance
for managing annual project reports. In addition, while NSF does
issue reminders for annual project reports due for continuing
grants, it does not have any type of annual report reminder system
for standard grants, which constitute 63 percent of NSF’s awards.

NSF’s lack of an adequate report reminder system was noted by
most of the program officers we interviewed. Also, most of the
principal investigators and sponsored research office staff stated
they would appreciate receiving reminders prior to due dates for
both types of project reports.

Lack of Policies Related to the Institutions’ Role: NSF policies are
also lacking with respect to the role that NSF expects institutions’
sponsored research offices to play in ensuring that project reports
are submitted on time. Sponsored research offices are an integral
part of the proposal and award cycle because NSF requires
principal investigators to submit proposals through these offices
and makes the award to the institution and not the principal
investigator. Once an award is made, the institution is responsible
for the financial management and financial reporting for the award.
Institutions are required to submit quarterly financial reports, and as
part of this process, NSF provides the institutions with final project
report status information. However, NSF’s policies do not establish
its expectations for the roles and responsibilities institutions should
have in ensuring that principal investigators submit timely project
reports. The institutions’ staff we interviewed all approached their
role in ensuring timely reports differently, with some tracking both
final and annual reports, and others tracking only one or the other
type of report. Additionally, NSF does not penalize the institution if
their principal investigators do not submit their reports in a timely
manner.

NSF also does not have a policy to allow an institution to submit a
final project report in those circumstances when the principal
investigator is no longer available. Program officers we interviewed
frequently cited difficulties in obtaining reports in situations where a
principal investigator leaves an institution and there is no one else
to submit the final project report. Thus, NSF’s lack of policy
drastically reduces the chance that NSF will receive a report if the
principal investigator leaves the institution.




                           11
Communication of the Importance of Project Reports within NSF:
NSF lacks clear policies describing the many possible uses and
importance of timely project reports as they relate to post-award
administration and accountability. As a result, NSF needs strong
policies to send a clearer message about the potential uses and
importance of project reports.

While NSF policies state that project reports are to be used for
performance reporting and gathering information on the progress of
awards, these policies do not outline other potential uses for these
reports, such as setting future research agendas, identifying trends
in research, or demonstrating the quality and worth of the funded
projects. In a broader context, the existing policies do not detail
the stewardship responsibilities that accompany the role of program
officer.

NSF may send an internal message that these reports are less of a
priority when compared to other staff responsibilities, such as
processing proposals in a timely manner. This message is
reinforced by the agency having a performance goal of processing
70 percent of all proposals within 6 months but having no similar
performance measure to assess the timeliness of project reports.

Furthermore, because of the temporary nature of many of its
program officers, NSF needs to have clearer post-award
administration policies to better inform program officers about their
responsibilities. Almost one-half of NSF’s program officers are
visiting personnel and will only be with the agency one to four
years. Therefore, written policies must clearly emphasize the
importance of the program officers’ role in post-award
administration activities, including the timely receipt and use of
project reports.

Communication of the Importance of Project Reports to Institutions
and Principal Investigators: NSF also may be communicating
unclear or conflicting messages about the importance of these
reports to principal investigators and institutions. Most principal
investigators we interviewed were unsure how NSF used the
information in the reports, yet program officers do use them for
documenting progress and performance. Additionally, NSF may be
sending a conflicting message to principal investigators regarding
the importance of annual and final project reports in informing
reporting under the GPRA because most of NSF’s divisions have
created a separate process or system for principal investigators to
report the results of their research for this purpose. NSF’s policy
manual explains that information from these reports is used in



                           12
annual reports to Congress to demonstrate the Foundation’s
performance as mandated by GPRA. Some of the program officers
confirmed that they use annual and final project reports to identify
ideas for GPRA reporting. However, almost all of NSF’s divisions
have established a separate system or process for collecting GPRA
“nuggets,” highlights of research, engineering and education
projects. These include sending principal investigators emails
requesting “nuggets” and requiring that the “nuggets” be in a
specified format, such as a PowerPoint file. These parallel systems
for soliciting research results can increase the time that both
program officers and principal investigators spend on performance
reporting, and can make the principal investigators wonder why
project reports are needed when highlights of the results can or
have already been provided in the annual or final project reports.

Financial Incentives for Submitting Annual Project Reports: NSF
policy provides financial incentives for submitting annual reports for
continuing grants, but not for standard grants. The standard grant
provides all of the funding for a multi-year project at the beginning
of the award, while the continuing grant provides funding in annual
increments over a set period of years. Continued annual funding
during the continuing grant’s set period depends on several factors,
including availability of funds and NSF’s receipt of the annual report
documenting the project’s progress. Thus, the continuing grant
provides principal investigators with a financial incentive for
submitting annual project reports on time. According to agency-
provided data, over a five-year period, NSF awarded standard
grants about 63 percent of the time and awarded continuing grants
about 37 percent of the time.9 However, NSF was missing
approximately 70 percent of the required annual project reports for
standard grants, but only 16 percent of the required annual reports
for continuing grants. Furthermore, no annual project reports were
missing for continuing grants in Fiscal Year 2004.

While NSF provides a strong financial incentive for submitting
annual reports for continuing grants, NSF also takes an additional
step to ensure that principal investigators with continuing grants
submit their annual reports. NSF’s Division of Institutional and
Award Support coordinates with each of NSF’s 36 divisions to
ensure that annual report reminders for continuing grants are sent
out, often in advance of the reports’ due dates. NSF has no similar
agency-wide reminder system for its standard grants.



9
 Cooperative agreements made up less than one percent of the awards, and our
data did not include contracts.


                             13
Utilization of Administrative Staff: Program officers face a
continually increasing workload that may force them to make
choices and place less emphasis on post-award administration,
including following up on overdue project reports. Some divisions
ensure proper monitoring by having administrative staff responsible
for identifying upcoming or overdue project reports. The
administrative staff is also responsible for following up with the
principal investigators. By establishing this supporting
infrastructure for the program officers, the divisions have helped
control the program officers’ workload while still ensuring that
award monitoring continues.


Conclusion
The environment in which NSF and its research communities
function is increasingly focusing on post-award accountability for
how federal funds are invested. The Government Performance and
Results Act, enacted in 1993, helped begin the movement to make
the Federal government more results oriented. In 2001, the
President’s Management Agenda established a strategy for
improving the management of the Federal government, and
requires the integration of performance reviews of Federal
programs with budget decisions on agency funding as one of its
five initiatives. The Improper Payments Information Act (Public Law
107-300) seeks to improve financial performance, and the Office of
Management and Budget’s Program Assessment Rating Tool
evaluates program performance, identifies program strengths and
weaknesses, and provides program effectiveness ratings to assist
in the budget decision-making process.

Within this framework of post-award administration and
accountability, NSF policy places significant responsibilities on its
program officers to ensure that final project reports are submitted in
a timely manner. The agency, however, is not always providing the
program officers with the management tools and support structures,
such as tracking systems and clear policies on the roles of program
officers, principal investigators, and institutions’ sponsored research
offices, to attain and ensure timely project reporting. For annual
project reports, NSF does not provide program officers with either
the policies or the management tools to ensure these reports are
submitted in a timely manner. Regardless of the type of project
report, NSF may not be using its supporting infrastructure of
systems, policies, and administrative staff to the fullest capacity to
help ensure the timely submission of reports.




                           14
NSF's policies outline the roles and responsibilities for institutions'
sponsored research offices for the financial administration of
awards. Yet NSF policies are silent on these offices' roles and
responsibilities when it comes to ensuring that project reports are
submitted timely. As the entity receiving the award, the sponsored
research offices should have a primary role in monitoring both
annual and final reports, but NSF has not clearly communicated
this expectation in its policies.

NSF needs to provide additional infrastructure, tools, and policies to
demonstrate management’s commitment to post-award
administration and to maximize everyone’s role in ensuring
accountability. By developing new policies and strengthening
existing ones, NSF can send a strong, clear message to the
research communities, Congress, and taxpayers that post-award
administration, including reporting on the results of the research
and the knowledge gained, is important.

Proposed NSF Actions
Recently, NSF has proposed changes to its Proposal and Award
Manual that clarify some reporting requirements, as well as the
responsibilities of program officers as they relate to project
reporting. NSF has also indicated that it is working to develop an
automated tracking system for annual and final project reports, and
a notification system to remind principal investigators prior to the
end of a reporting period that a report is due. These improvements
will also provide institutions’ sponsored research offices with more
accessible information regarding report due dates. We have
considered these proposals in our recommendations.


Recommendations

To strengthen NSF’s post-award administration policies and
procedures, we recommend that the Chief Financial Officer and the
Director, Office of Information and Resource Management:

1-1) Continue with plans and develop tracking and automated
reminder systems for annual and final project reports. These
systems should:

       a) Remind principal investigators, prior to the end of a
       reporting period, that a report is due, and again if project
       reports become overdue. The automated report reminders
       should contain information explaining the importance of
       these reports and how they are used by the agency to



                           15
      monitor and report on the programmatic performance of its
      research portfolio.

      b) Include a module, within the electronic awards
      management system, that allows appropriate NSF staff to
      easily review the due dates for annual and final project
      reports for those awards in their portfolios. NSF staff should
      review this information and take appropriate action to ensure
      the timely submission of the reports.


1-2) Strengthen current NSF policies on ensuring the timeliness of
project reports by:

      a) Updating the Proposal and Award Manual to describe the
      roles and responsibilities of NSF staff relative to the
      timeliness of annual project reports, as it does for final
      project reports.

      b) Outlining in more detail the roles of institutions. This
      includes placing responsibility on the institution to track
      project report due dates and inform principal investigators
      about their responsibility to submit these reports on time.

      c) Establishing procedures for institutions to submit final
      project reports when principal investigators leave the
      institution or are otherwise unable to submit the project
      reports.

1-3) Emphasize the importance of project reports to principal
investigators and institutions’ sponsored research officers by:

      a) Modifying the award letter to include the due dates for
      both annual and final project reports for that award.

      b) Modifying FastLane to notify a principal investigator when
      an annual or final project report was received and approved
      by the program officer.

      c) Modifying FastLane’s annual and final project report
      modules to include a section for principal investigators to
      submit performance data for their award for Government and
      Performance Results Act reporting, in order to eliminate
      duplicate reporting of project results.




                          16
1-4) Develop policies and procedures to incorporate roles and
responsibilities for administrative staff in helping to ensure the
timely receipt of project reports. Such responsibilities could include
identifying and tracking upcoming and overdue final and annual
project reports.

1-5) Develop goals and performance measures, as part of the
agency’s annual performance plan, to evaluate the agency’s
performance in ensuring the timely submission of final and annual
project reports.




                           17
NSF Has Funded Investigators with Overdue Final
Project Reports
        NSF’s policy states that principal investigators and co-principal
        investigators will not receive funding for new awards until the final
        project reporting obligation is fulfilled on all prior awards. To
        enforce this policy, NSF’s automated proposal processing system
        was designed to ensure that new funding does not occur in this
        situation. While NSF expects the system to always stop new
        funding when final reports have not been provided, during the past
        5 years NSF had 74 cases where principal investigators or co-
        principal investigators received new funding, although NSF had not
        accepted their final reports for earlier projects.

        NSF does not prevent a principal investigator with an overdue final
        report from submitting a new proposal, and includes the new
        proposal in the merit review process. However, if the proposal is
        selected for funding, NSF’s proposal processing system will block
        the proposal from receiving funds until the final project report from
        the prior award is submitted and accepted by NSF. Many of the
        program officers we interviewed rely solely on the system to identify
        this situation and withhold new funding. They took no additional
        steps to ensure that the principal investigators turned in outstanding
        final project reports before they recommended them for award.

        Agency-provided data showed that over a five-year period, NSF’s
        system identified overdue final reports and stopped subsequent
        funding in 497 cases. However, in 74 cases, principal investigators
        inappropriately received funding for new awards. In 45 of these
        cases, the principal investigators had submitted their final project
        reports, but NSF had not yet approved them. These new awards
        totaled $14 million. In the other 29 cases, the principal
        investigators had not submitted their reports to NSF at the time the
        new awards, totaling $8 million, were made. In all 74 instances, if
        the internal control in the system was working as designed and
        intended, with no tolerance for errors, no new funding should have
        occurred.

        At the time of our audit, NSF was unsure of why these cases of
        new funding occurred. Two possibilities exist: the automated
        system was not working as expected, or someone manually
        overrode the internal control provided in the system. Prior to our
        audit, NSF had not developed a process to test the system to verify
        that it was working as intended to prevent principal investigators
        with outstanding final project reports from receiving new funding.


                                  18
In addition, at the time of our audit, five NSF employees had the
ability to manually override the system to change the final report
status code.10 An NSF employee confirmed that such overrides
had occurred in order to process new awards. However, NSF has
no policies or internal controls for this type of override.
Furthermore, with one exception, NSF staff did not document these
actions in eJacket, NSF’s electronic, web-based internal grants
management system. Therefore, we could not determine if these
new funding actions occurred due to overrides and, if so, whether
the overrides were appropriate.

When NSF makes new awards to principal investigators who have
outstanding final reports, it does not hold the principal investigators
accountable for the federal funds they received for prior awards.
Performance reporting to stakeholders also may be affected
because NSF is not receiving information about the results of its
funded projects. Furthermore, NSF is not treating principal
investigators equitably when it does not consistently deny funding
in these cases. These situations can also undermine the efforts of
institutions that are trying to get principal investigators at their
institutions to submit their project reports on time.

Manually overriding an automated control system with no tolerance
for errors or exceptions is an action that must be taken very
seriously. We recognize that there will be extenuating
circumstances where NSF must balance the integrity of internal
controls with the need to process a new award. However, in these
instances, NSF must have strong policies and internal controls to
ensure that such actions are only taken when appropriate and are
completed only by authorized staff. In addition, the reasons for the
override should be documented in agency records and the
frequency of such overrides should be recorded and tracked.

Recommendation

We recommend that the Chief Financial Officer and the Director,
Office of Information and Resource Management:

2-1) Develop policies and procedures to specify required actions
when management determines it appropriate to allow a new award
to be processed when the principal investigator has not submitted

10
   We contacted NSF about the appropriateness of each of the five people having
this ability. A NSF employee stated that three of the people should not have
authority to do so and will update NSF systems accordingly.



                              19
or NSF has not approved a final project report from an earlier
award. The procedures should require management to specifically
document:
    • The reasons for allowing the new award to be funded;
    • Personnel authorizing the funding; and
    • Any follow-up actions to be taken and due dates for those
      actions.

The procedures should also ensure that the program officer is
notified when such action is taken. NSF should continue to limit
the number of employees provided access to complete these types
of overrides, and ensure that these employees are not also the
authorizing official for the override. Implementing these internal
controls will help to ensure the integrity of the process.

2-2) Develop policies and procedures for monitoring the award
system on a regular basis to ensure that the system is functioning
with a zero tolerance for error, and ensure that the instances where
investigators with overdue final reports obtained new funding were
properly authorized and documented.




                          20
Agency Response to Findings and Recommendations
        NSF generally agreed with our findings and recommendations,
        except that it “feels that all aspects of OMB administrative guidance
        relative to assistance awards has been appropriately and
        thoroughly covered by NSF via its Grant Conditions and
        supplemental coverage documented in the Grant Proposal Guide
        and Grant Policy Manual.” The audit findings do not identify
        guidance that is lacking. Rather, they identify areas where the
        guidance can be improved. The audit also identified circumstances
        where NSF did not implement its own policies and procedures. For
        example, its policies state that NSF will send reminder notices for
        final project reports. However, with the implementation of its
        current award systems, NSF no longer sends these reminders on a
        regular basis. NSF’s proposed award system is expected to correct
        this issue. Appendix A contains the agency’s response in full.




                                  21
Other Matters for Consideration
         During the course of our audit we identified other improvements
         NSF could make to systems, policies, and procedures to help
         improve the timely submission of annual and final project reports.
         We offer the following suggestions for NSF’s consideration.

            •   Require an annual project report before granting a no-cost
                extension. Currently, an institution can obtain a no-cost
                extension for an award without submitting an annual project
                report. Some of the program officers we interviewed agreed
                that NSF should require a principal investigator to submit a
                report before granting a no-cost extension. Requiring such
                reports to be submitted and approved by NSF would help
                hold the principal investigator accountable for the funds
                received to date.

            •   Develop and document policies and procedures for waiving
                final project reports. While certain NSF staff within the
                Division of Institutional and Award Support have authority to
                waive final project reports, NSF has no policies, guidelines,
                or internal controls over these actions. Developing and
                documenting such policies would help strengthen the
                internal controls in this area.

            •   Require a single report for collaborative research involving
                multiple principal investigators, institutions, and awards.
                Currently, NSF requires each award’s principal investigator
                to submit project reports. Given the increasing focus on
                collaborative work crossing traditional lines of scientific
                disciplines, NSF should consider requiring only one report
                for the overall project.

            •   Develop a system that prevents a principal investigator with
                an outstanding final report from being added to an existing
                award. In the course of our audit, we identified two cases
                where a principal investigator with an overdue final project
                report was later added to an existing award, without having
                submitted the report. Such a system check would be
                consistent with NSF’s policy not to permit new funding to
                principal investigators with overdue final project reports.




                                   22
Appendix A: Agency Response




Date: December 10, 2004

From: XXXXXXXXXX
      Office of Budget, Finance & Award Management

To:   XXXXXXXXXX
      Associate Inspector General for Audit

Subject: Comments on OIG Draft Audit Report Dated November 15, 2004


BFA’s Division of Institution & Award Support has completed its review of the
referenced draft audit report. This transmits BFA’s summary comments on the
various draft audit findings. For the record, BFA has been proactively addressing
the recommended policy updates and clarifications, and system enhancement
findings cited in the audit report. We are in the process of updating the Proposal
and Award Manual and the Grant Policy Manual, and developing system
requirements for a new comprehensive project report tracking system.

Most of the system recommendations cited in the audit findings are already
included as part of proposed systems specification of notification and tracking
system for project reports, including a reminder component. BFA in concert with
DIS over the past several months has been developing system requirements for a
comprehensive notification and tracking system. We have also been working on
implementing the various systems hard edits recommended in the audit
throughout NSF’s back office systems. A hard edit not recommended in the audit
findings, but being considered by NSF, would prevent any awards from being
made to principal investigators with overdue annual as well as final project
reports. In addition, no action would be permitted if (funded and post-award
administrative) a principal investigator has any type of overdue project reports
(annual or final).

NSF does take exception to the audit finding on page 5 regarding “NSF’s failure to
implement all post-award administration policies. . “ NSF feels that all aspects of
OMB administrative guidance relative to assistance awards has been
appropriately and thoroughly covered by NSF via its Grant Conditions and


                                        23
supplemental coverage documented in the Grant Proposal Guide and Grant
Policy Manual. There is no evidence provided in this report to substantiate this
finding. NSF continues to review its policies and systems to assist NSF recipients
in their understanding of grant post award requirements.




                                        24
Appendix B: Division Statistics – Final Project Reports
The following table provides information on final project reports for the 36
divisions included in our analysis.11

Directorate      Division/Office         Number Percent of       Percent Percent of Percent of
                                         of Final   Final        of Final  Final   Final Reports
                                         Reports Reports         Reports Reports turned in late
                                           Due    turned in     turned in Missing   or missing
                                                   on time         late
                 Design,
Engineering      Manufacturing and
(ENG)            Industrial Innovation       2652         66%        31%           3%           34.13%
Math and
Physical
Sciences
(MPS)            Materials Research          2146         48%        49%           3%           51.72%
Education and    Elementary,
Human            Secondary, and
Resources        Informal Science
(EHR)            Education                    731         44%        46%          10%           56.22%

MPS              Physics                     1136         43%        50%           7%           56.60%

EHR             Graduate Education             97         43%        57%           0%           56.70%
Science,
Behavioral, and
Economic        Science Resources
Sciences (SBE) Statistics                      28         43%        32%          25%           57.14%
Geosciences     Atmospheric
(GEO)           Sciences                     1524         43%        54%           4%           57.48%
GEO              Ocean Sciences              2103         42%        55%           4%           58.44%
                 Chemical and
ENG              Transport Systems           1123         41%        53%           5%           58.50%
MPS              Chemistry                   1930         41%        51%           9%           59.43%
Computer and
Information
Systems and
Engineering      Information and
(CISE)           Intelligent Systems          786         40%        52%           9%           60.43%
Office of the
Director (O/D)   Polar Programs               983         39%        57%           3%           60.53%
EHR              EPSCoR                       107         38%        53%           8%           61.68%
                 Computing and
CISE             Communication               1267         38%        58%           4%           62.27%

11
   Note: We did not include awards made at the Directorate level or the Office of the Director
(with the exceptions of the Office of Polar Programs and the Office of Integrative Activities). Also,
at the time we began our audit work, the Office of International Science and Education (OISE)
was administratively part of the Social, Behavioral, and Economic Sciences Directorate. OISE
has since been moved to the Office of the Director.


                                                 25
Directorate    Division/Office          Number Percent of     Percent Percent of Percent of
                                        of Final   Final      of Final  Final   Final Reports
                                        Reports Reports       Reports Reports turned in late
                                          Due    turned in   turned in Missing   or missing
                                                  on time       late
               Research

               Electrical and
               Communications
ENG            Systems                     1014       38%        53%         9%        62.33%
               Human Resource
EHR            Development                  365       38%        47%        15%        62.47%
               Advanced
               Networking
               Infrastructure and
CISE           Research                     622       37%        55%         7%        62.86%
               Mathematical
MPS            Sciences                    3182       37%        54%         9%        63.20%
               Civil and Mechanical
ENG            Systems                     1297       36%        54%        10%        63.69%
               Research,
               Evaluation, and
EHR            Communication                291       36%        53%        12%        64.26%
               International Science
SBE            and Engineering             1640       36%        54%        10%        64.45%
               Bioengineering and
               Environmental
ENG            Systems                      698       35%        53%        12%        65.19%
               Experimental and
CISE           Integrative Activities       387       35%        65%         0%        65.37%
               Educational System
EHR            Reform                        87       34%        47%        18%        65.52%
               Undergraduate
EHR            Education                   2514       34%        50%        16%        65.83%
               Division of Molecular
Biological     and Cellular
Sciences (BIO) Biosciences                 1632       34%        47%        19%        65.87%
               Behavioral and
SBE            Cognitive Sciences          1894       34%        56%        10%        66.31%
               Environmental
BIO            Biology                     1656       34%        60%         6%        66.43%
               Biological
BIO            Infrastructure              1028       33%        56%        10%        66.73%
GEO            Earth Sciences              2470       33%        61%         6%        67.29%
               Astronomical
MPS            Sciences                     660       32%        59%        10%        68.33%
               Integrative Biology
BIO            and Neurosciences           2042       32%        52%        17%        68.41%
               Social and Economic
SBE            Sciences                    2268       31%        60%         9%        69.22%


                                              26
Directorate   Division/Office          Number Percent of     Percent Percent of Percent of
                                       of Final   Final      of Final  Final   Final Reports
                                       Reports Reports       Reports Reports turned in late
                                         Due    turned in   turned in Missing   or missing
                                                 on time       late
              Engineering
              Education and
ENG           Centers                      457       30%        60%        10%        70.24%
              Advanced
              Computational
              Infrastructure and
CISE          Research                     211       29%        50%        21%        70.62%

O/D           Integrative Activities       125       26%        60%        14%        74.40%




                                             27
Appendix C: Division Statistics – Annual Project Reports
The following table provides information on annual project reports for the 36
divisions included in our analysis.12

Directorate         Division/Office                         Number           Number       Percent
                                                            required         received     not
                                                                                          received
Computer and
Information
Science and
Engineering
(CISE)              Information and Intelligent Systems              2935         2464          16%
Math and
Physical
Sciences (MPS)      Physics                                          3073         2473          20%
MPS                 Materials Research                               5670         4443          22%
Biological
Sciences (BIO)      Molecular and Cellular Biosciences               4356         3357          23%
Education and
Human
Resources
(EHR)               Educational System Reform                         137          102          26%
MPS                 Chemistry                                        5471         4066          26%
Geosciences
(GEO)               Atmospheric Sciences                             4075         3012          26%
                    Elementary, Secondary, and
EHR                 Informal Science Education                       2567         1812          29%
Engineering         Bioengineering and Environmental
(ENG)               Systems                                          1872         1253          33%
EHR                 Human Resources Development                      1013          677          33%
Office of the
Director (O/D)      Polar Programs                                   2864         1914          33%
MPS                 Astronomical Sciences                            2281         1508          34%
                    Research, Evaluation, and
EHR                 Communications                                     975         641          34%
                    Advanced Networking
CISE                Infrastructure and Research                      2831         1810          36%
                    Integrative Biology and
BIO                 Neurosciences                                    4763         2956          38%
                    Computing and Communication
CISE                Research                                         4551         2742          40%
BIO                 Biological Infrastructure                        2714         1612          41%
MPS                 Mathematical Sciences                            8530         4797          44%
EHR                 EPSCoR                                            243          130          47%

12
   Note: We did not include awards made at the Directorate level or the Office of the Director
(with the exceptions of the Office of Polar Programs and the Office of Integrative Activities). Also,
at the time we began our audit work, the Office of International Science and Education (OISE)
was administratively part of the Social, Behavioral, and Economic Sciences Directorate. OISE
has since been moved to the Office of the Director.


                                                 28
Directorate   Division/Office                       Number           Number     Percent
                                                    required         received   not
                                                                                received
ENG           Engineering Education and Centers            1601           851         47%
GEO           Ocean Sciences                               5751          3038         47%
              Advanced Computational
CISE          Infrastructure and Research                      450        236        48%
              Design, Manufacture, and Industrial
ENG           Innovation                                   2908          1452        50%
ENG           Chemical and Transport Systems               2491          1226        51%
EHR           Graduate Education                            503           245        51%
              Electrical and Communications
ENG           Systems                                      2611          1270        51%
OD            Integrative Activities                        125            59        53%
ENG           Civil and Mechanical Systems                 3173          1481        53%
BIO           Environmental Biology                        4499          2056        54%
EHR           Undergraduate Education                      5506          2492        55%
GEO           Earth Sciences                               5946          2356        60%
SBE           Behavioral and Cognitive Sciences            3510          1389        60%
SBE           Social and Economic Sciences                 4400          1648        63%
              Experimental and Integrative
CISE          Activities                                       423        141        67%
              Division of Science Resources
SBE           Statistics                                       44          11        75%
              International Science and
SBE           Engineering                                  3382           543        84%




                                        29
Appendix D: Directorate Statistics – Final and Annual
Project Reports
The following table provides information on project reports for the 8 directorates
included in our analysis.

Final Project Report Data, By Directorate:

 Directorate     Number   Number    Number        Percent        Percent     Percent      Percent
                 On       Late      Missing       On Time        Late        Missing      Late and
                 Time                                                                     Missing
 Biological
 Sciences          2100      3399        862                33        53             14         67
 Computer
 and
 Information
 Science and
 Engineering       1216      1843        214                37        56.             7         63
 Education
 and Human
 Resources         1538      2073        589                37        49             14         63
 Engineering       3448      3310        489                48        46              7         52
 Geosciences       2343      3508        280                38        57              5         62
 Math and
 Physical
 Sciences          3694      4706        661                41        52              7         59
 Office of the
 Director           420       638            56             38        57              5         62
 Social,
 Behavioral,
 and
 Economic
 Sciences          1932      3311        589                33        57             10         67



Annual Project Report Data, By Directorate:

 Directorate                                  Number              Number              Percent not
                                              required            received            received
 Biological Sciences                                     16401               10062             39
 Computer and Information Science and
 Engineering                                             11190                7393               34
 Education and Human Resources                           11074                6168               44
 Engineering                                             14664                7542               49
 Geosciences                                             15947                8537               46
 Math and Physical Sciences                              25037               17287               31
 Office of the Director                                   2991                1973               34
 Social, Behavioral, and Economic Sciences               11382                3633               68




                                              30
